Press Releases New Orleans, Louisiana - 05/27/2010 - Employee Sentenced to 5 Years in Federal Prison for Theft of Funds from Langston Hughes Academy Charter School
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Press Releases
EMPLOYEE SENTENCED TO 5 YEARS IN FEDERAL PRISON FOR THEFT OF FUNDS FROM LANGSTON HUGHES ACADEMY CHARTER SCHOOL
May 27, 2010
FOR IMMEDIATE RELEASE
KELLY A. THOMPSON, age 38, a resident of New Orleans, Louisiana, was sentenced today in federal court by U. S. District Judge Carl J. Barbier to five (5) years incarceration, announced U. S. Attorney Jim Letten. Judge Barbier also ordered the defendant to pay $673,671.86 in restitution to the victims of her criminal conduct, and particularly the Langston Hughes Academy Charter School and ordered the defendant to serve three (3) years of supervised release, during which time she will be under federal supervision and risk additional imprisonment should she violate any terms of the release.
According to the court documents, on February 25, 2010, THOMPSON pled guilty to theft of federal funds from Langston Hughes Academy Charter School. THOMPSON was employed at Langston Hughes Academy Charter School as the Business and Human Resources Manager/Financial Manager beginning approximately July 1, 2008 until approximately November 6, 2009, and in that capacity, made cash withdrawals and then manipulated the school records in order to conceal the thefts.
U. S. Attorney Jim Letten stated,  The defendant's reprehensible crimes directly and negatively impacted the children of New Orleans at a critical time in which this struggling community–and especially our most vulnerable citizens--cannot afford even a single individual putting their own needs ahead of the needs of our children.
Assistant U. S. Attorney James Mann requested permission for representatives of the Langston Hughes Academy Charter School to address the Court and speak to the damage experienced as a result of the defendant actions. Former Chairman of the Board, Attorney Michael Allweiss, founder and former school CEO, John Alford and seventh grade Social Studies teacher, Andrew Sullivan, all described how the defendant's crimes robbed the school's children of much needed resources. They said her theft averaged $1300 per student.
Prior to issuing the sentence, Judge Barbier admonished the defendant saying that this was one of the most horrific crimes he had ever seen and that the defendant's criminal conduct  was routine, systematic and planned. The Judge further stated, You have managed with your crime to deal a devastating blow to the charter school reform movement and, You robbed inner city children of educational opportunities.
This case was investigated by the Federal Bureau of Investigation and the Department of Education, Office of Inspector General. The prosecution is being handled by Assistant United States Attorneys James R. Mann, Chief of the Financial Crimes Unit, and Brian Klebba.
Top
Printable view
Last Modified: 06/02/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov